No. 20-120
INTIIE

hpremt Q!nurt nf tlft Jbtitth &httes
ALFREDO JUAREZ,

Petitioner,

v.

PEOPLE OF THE STATE OF COLORADO,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF COLORADO

CERTIFICATE OF SERVICE

I, Felicia H. Ellsworth, a member of the bar of this Court, hereby certify that, on
this 13th day of January, 2021, all parties required to be served have been served copies
of the Reply Brief for Petitioner in this matter by overnight courier to the address below.

Counsel of Record for Respondent
L. ANDREW COOPER

OFFICE OF THE COLORADO ATTORNEY GENERAL

1300 Broadway St.
Denver, CO 80203

720-508-6465

andrew.cooper@coag.gov

J=dua_#

FELICIA H. ELLSWORTH
WILMER CUTLER PICKERING
HALE AND DORR LLP

60 State Street
Boston, MA 02109
(617) 526-6000
fe1icia.e1Jsworth@wilmerhale.com

